No. 19-1181
IN THE

Supreme Court of the United States
ESTATE OF THOMAS STEINBECK, GAIL KNIGHT STEINBECK,
and THE PALLADIN GROUP, INC.,
Petitioners,
v.
WAVERLY SCOTT KAFFAGA, as Executor of the Estate of
Elaine Anderson Steinbeck,
Respondent.
CERTIFICATE OF SERVICE
I, Susan J. Kohlmann, hereby certify that I am a member of the Bar of this
Court, and that I have this 6th day of July 2020, caused a paper copy of the Brief in
Opposition to be delivered to the Court and an electronic version of the document to be
delivered to:
Matthew James Dowd
Dowd Scheffel PLLC
1717 Pennsylvania Avenue, NW
Suite 1025
Washington, DC 20006
(202) 559-9175
mdowd@dowdscheffel.com
Counsel for The Estate of Thomas
Steinbeck, et al.

/s/ Susan J. Kohlmann
Susan J. Kohlmann

